Pension Benefit Guaranty Corporation
   Office of Inspector General




SEMIANNUAL REPORT TO CONGRESS
April 1,2010 - September 30, 2010
                              Pension Benefit Guaranty Corporation
                                                               Office of Inspector General
                                                 1200 K Street, NW, Washington, DC 20005-4026


									                                                                              January 7, 2011	


The Board of Directors
Pension Benefit Guaranty Corporation

 During the six month period covered by this report, the PBGC Office of Inspector General addressed a
range of issues including information technology, financial reporting, and pension plan terminations.
We issued two reports with nine recommendations for improvement, completed two investigations,
resolved 45 complaints, and continued investigative work on 3 cases that were previously accepted for
prosecution by U.S. Attorneys’ offices.

Federal agencies have been called upon to enhance the attention paid to risk and controls. The
myriad requirements of OMB Circulars A-123 and A-130, the Federal Managers’ Financial Integrity
Act (FMFIA) of 1982 and the Federal Information Security Management Act (FISMA) of 2002, as well
as other guidance relating to accountability and transparency, all share the objective of enhancing
an agency’s risk management and ensuring that an agency’s response to risk provides reasonable
assurance that the organization will achieve its strategic objectives.

The reports issued during this period and our ongoing audit work share a common focus on risk and
risk management. For example:

 •	 In our report on Authorizations to Operate PBGC Information Systems, we explained that PBGC
    has been unable to determine the risk associated with weaknesses in its information technology
    systems. As a result, PBGC senior management officials do not have a valid basis on which to
    authorize continued operations of PBGC’s automated systems. Nevertheless, the Corporation
    continues to rely on these systems for all aspects of its operations.
 •	 Our audit of the Actuarial Calculation Toolkit (ACT) disclosed that the personally identifiable
    information for approximately 1 million participants is currently at risk. This situation occurred
    when PBGC determined the level of risk associated with ACT, incorrectly classifying it as a minor
    system. As a result of the incorrect assessment of risk, the Corporation did not perform the
    security risk assessment mandated by federal standards or take needed actions to mitigate risk.
 •	 As part of our review of PBGC’s draft document titled Major Asset Allocation Transitions, we shared
    observations and suggestions, including the need to address specific investment-related risks
    and associated mitigations. Subsequent to this six-month report period, but before we issued
    this Semiannual Report, PBGC adopted many of our suggestions relating to risk and added a
    requirement for a transition implementation plan to include an analysis of pertinent risks and
    identify specific mitigating measures.
 During the six month period, we continued to work closely with PBGC management to address
open audit recommendations. A total of 47 recommendations were closed during the period,
leaving 163 recommendations yet to be addressed. PBGC reports that it plans to complete many
of these recommendations in the near future, with more than half (82) scheduled to be completed
within the next six month period. Some recommendations will take far longer to fully implement.
For example, certain recommendations relating to PBGC’s information technology security are not
scheduled for completion until 2015. It is important that PBGC ensure effective interim measures
to mitigate risks until final action can be taken.

Sincerely,




Rebecca Anne Batts
Inspector General
Table of Contents
Letter to the Board of Directors

Executive Summary  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
	
	     The Pension Benefit Guaranty Corporation
	     The Office of Inspector General

OIG’s Focus on Challenges Facing PBGC

OIG’s Audits and Investigations of PBGC’s Information Security . . . . . . . . . 5
	
	     Authorization to Operate PBGC Information Systems
	     Controls to Better Protect Participant Personally Identifiable Information
	     Corrective Actions in Response to OIG’s Investigative Management Advisories
	     Information Technology and Corrective Action Plans

Congressional Request Leads to New Audit Work  . . . . . . . . . . . . . . . . . . . .  .11
	
	     Congressional Request: PBGC’s Handling of UAL Pension Plan Terminations


Progress in Reducing the Backlog of Unimplemented Audit
Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  .13

Significant Ongoing Work . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  .16
	
	     Request from Special Committee on Aging to Evaluate PBGC’s Preparedness for a
        Potential Workload Influx
	     Congressional Request: Evaluation of PBGC’s Actions in Processing Certain
        Minnesota Steelworker Plans
	     OIG’s Annual Audits of the Financial Statements
	     Assessment of PBGC Compliance with FISMA
	     Review of PBGC’s Proposed Investment Policy implementation Guidance

Other OIG Reporting. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .19
	
	     Access to Information
	     Management Decisions
	     Audit Peer Review Results




                                        Semiannual Report Of The Inspector General—SEPTEMBER 2010                                    iii
     Other OIG Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .21

     Appendix . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .23
     	
     	     Cross-Reference to Reporting Requirements of the Inspector General Act
     	     Summary of Audit and Investigative Activities
     	     Results of Reports Issued
     	     Summary of Reports Older Than 6 Months for Which Management
              Decision Has Not Been Achieved
     	     Previously Reported Significant Recommendations for Which Corrective
              Action Has Not Been Completed




IV                            PBGC Office of inspector general
Executive Summary
The Semiannual Report to Congress summarizes the activities and accomplishments
of the Pension Benefit Guaranty Corporation (PBGC) Office of Inspector General (OIG)
for the period April 1, 2010 through September 30, 2010. During this reporting period,
our work focused primarily on financial reporting, information technology security, and
pension plan termination processes.

 •	 Our report on authorizations to operate (ATO) PBGC information systems explained
    that the Corporation continues to rely on its automated systems for all aspects
    of its operations, despite PBGC’s inability to determine the risks associated with
    weaknesses in its information technology systems (see pages 5 -7.)
 •	 Through work initiated as a result of a whistleblower complaint, we determined the
    personally identifiable information for approximately 1 million plan participants
    is currently at risk because PBGC has not implemented adequate controls in its
    Actuarial Calculation Toolkit (see pages 7-8).
 •	 In response to a Congressional request, we evaluated PBGC’s handling of the 2005
    termination of the United Airlines (UAL) pension plans and found PBGC took many
    actions to protect worker and retiree interests. While responding to the request, we
    also found serious deficiencies in PBGC’s plan asset and participant data audits for
    the UAL plans and initiated evaluations that will be completed in the near future (see
    pages 11-12).

Highlights of our follow-up on PBGC’s progress in addressing findings from prior audits
and investigations, include:

 •	 PBGC made good progress in reducing the backlog of unimplemented audit
    recommendations by closing 47 of the 201 recommendations that were open as of
    April 1, 2010.
 •	 More than 60% of the recommendations that remain open relate to needed
    improvements in information technology and contracting.
 •	 PBGC expects to close more than half of its open recommendations in the next six
    months.
 •	 PBGC took some corrective actions to improve security and protect confidential
    information in response to investigative management advisories.

We will continue to monitor the completion of recommendations relating to PBGC’s
information technology security, scheduled for completion in 2015.

As of September 30, 2010, much of our audit work was nearing completion (and was
issued prior to this report’s submission to Congress), including evaluating PBGC’s
preparedness for a potential workload influx, the annual audits of the PBGC’s financial
statements, and PBGC’s compliance with the Federal Information Security Act (FISMA).
Other ongoing work includes evaluation of PBGC’s actions in processing certain
Minnesota Steelworker plans, and review of PBGC’s proposed investment policy
implementation guidance and its written guidance for the securities lending program.



                            Semiannual Report Of The Inspector General—SEPTEMBER 2010        1
2   PBGC Office of inspector general
Introduction
The Pension Benefit Guaranty Corporation
The Pension Benefit Guaranty Corporation (PBGC or the Corporation) was established
under Title IV of the Employee Retirement Income Security Act of 1974 (ERISA),
as amended (29 U.S.C. §§ 1301-1461), as a self-financing, wholly-owned Federal
government corporation to administer the pension insurance program. ERISA requires
that PBGC: (1) encourage the continuation and maintenance of voluntary private pension
plans, (2) provide for the timely and uninterrupted payment of pension benefits to
participants and beneficiaries, and (3) maintain premiums at the lowest level consistent
with carrying out PBGC’s obligations.

For about 44 million Americans, PBGC provides assurance that their retirement benefits
                                                                                                      PBGC Board
will be paid, up to a statutory limit. PBGC protects the pensions of participants in certain
defined benefit pension plans (i.e., plans that promise to pay definitely determinable             Responded Promply
retirement benefits). Such defined benefit pension plans may be sponsored individually
                                                                                                     to Our Interim
or jointly by employers and unions. PBGC is now responsible for the pensions of about
1.5 million people.                                                                                       Report

During FY 2010, PBGC managed about $71.19 billion in assets and paid about $5.6 billion
in benefits to almost 801,000 retirees and beneficiaries. The Corporation reports having
sufficient liquidity to meet its obligations for a number of years, despite a cumulative       PBGC paid about
deficit of $23 billion from the single-employer and multiemployer programs. Neither
                                                                                               $5.6 billion in
program at present has the resources to satisfy all of the benefit obligations already
incurred, much less future obligations likely to be assumed.                                   benefits to almost

PBGC’s governance structure comprises the Board of Directors, their Board                      801,000 retirees and
Representatives, a Presidentially-appointed Director, and Congressional oversight. Other       beneficiaries during
elements of governance include PBGC’s system of internal control, its clearly articulated
authority to act, and the policies and procedures under which PBGC operates. PBGC              FY 2010.
governance is complex and requires those who are charged with its oversight to view the
Corporation from a number of differing perspectives. Oversight by the PBGC Board, PBGC
management and the OIG is critical to effective corporate governance.


The Office of Inspector General
Our Office of Inspector General (OIG) was created under the 1988 amendments to the
Inspector General Act of 1978. We provide an independent and objective voice that helps
the Congress, the Board of Directors, and PBGC protect the pension benefits of American
workers. Like all Offices of Inspector General, the PBGC OIG is charged with providing
leadership and recommending policies and activities designed to prevent and detect
fraud, waste, abuse, and mismanagement; conducting and supervising independent
audits and investigations; and recommending policies to promote sound economy,
efficiency, and effectiveness.



                                Semiannual Report Of The Inspector General—SEPTEMBER 2010      3
                             To provide value, we focus our work on the challenges facing PBGC. We strive to target
                             the highest risk areas and emphasize timely reporting of results. We determine what we
                             will investigate and audit and how we will conduct those investigations and audits. We
                             determine our own priorities and have had our own independent legal counsel since
                             1990. Our audit and investigative staff is competent and experienced, with professional
                             backgrounds in other Offices of Inspector General, independent accounting firms, and
OIG independently            federal criminal investigative agencies. We independently respond to Congressional
responds to                  requests and initiate contact with Congress, as warranted.

Congressional                The OIG is in full compliance with the Quality Standards for Federal Offices of Inspector
requests and initiates       General, published by the President’s Council on Integrity and Efficiency (PCIE) and
                             the Executive Council on Integrity and Efficiency (ECIE). Our audit work is performed
contact with Congress,       in compliance with Generally Accepted Government Auditing Standards, issued by
as warranted                 the Comptroller General of the United States, and our investigations are performed in
                             compliance with PCIE and ECIE Quality Standards for Investigations.

                             The PBGC OIG is organizationally independent. The Inspector General reports directly
                             to the highest level of PBGC governance, the PBGC Board and to Congress. In executing
      Report
                             our independent oversight role, we perform a range of legally-mandated work (e.g.,
   to Our Interim            the annual financial statement audit and the annual Federal Information Security
                             Management Act review) as well as a body of discretionary work.
Responded Promply

    PBGC Board




                         4   PBGC Office of inspector general
OIG’s Focus on Challenges
Facing PBGC
Between April 1, 2010 and September 30, 2010, the Pension Benefit Guaranty
Corporation (PBGC) Office of Inspector General (OIG), focused on three priority areas:
financial reporting, information technology security, and pension plan termination
processes. We issued two audit reports and two reports of investigation. In response to
a Congressional request, we reviewed PBGC’s handling of the 2005 termination of United
Airline’s pension plans. Our work resulted in the initiation of a follow-on audit of PBGC’s
plan asset and participant data audits of these pension plans. We also initiated one new
investigation and closed 47 investigations and complaints. As of September 30, 2010, we
are actively working three criminal cases with various U.S. Attorneys’ offices.                        PBGC Board

                                                                                                  Responded Promply

                                                                                                      to Our Interim
OIG’s Audits and Investigations of PBGC’s
Information Security                                                                                      Report


Because of PBGC’s long-standing and systemic information technology (IT) weaknesses,
we continued our focus on information technology security during the six month
                                                                                                  OIG continued work
period. In our prior report to Congress, we had reported that our FY 2009 financial
statement audits included an adverse opinion on internal control, based on significant            to identify and correct
IT weaknesses that posed an increasing and substantial risk to PBGC’s ability to carry out
                                                                                                  IT weaknesses which
its mission. (see Audit of the Pension Benefit Guaranty Corporation’s Fiscal Year 2009 and
2008 Financial Statements, AUD-2010-1/FA-09-64-1 (http://oig.pbgc.gov/audit/2010/pdf/             pose threats to PBGC’s
FA-09-64-1.pdf ).
                                                                                                  ability to carry out its
Remediating these serious deficiencies will require time. We recently issued two audit            mission.
reports, described below, that address identified shortcomings in PBGC’s information
technology security. Further, the financial statement and Federal Information Security
Management Act (FISMA) audit work that was ongoing as of September 30, 2010, shows
that some progress has occurred. The results of our audits of PBGC’s FY 2010 financial
statements and of our FISMA work will be summarized in our next semiannual report.



Authorization to Operate PBGC Information Systems
AUD-2010-8 /IT-09-70
http://oig.pbgc.gov/audit/2010/pdf/IT-09-70.pdf

Although PBGC has been unable to determine the risk associated with weaknesses in
its information technology systems, the Corporation continues to rely on its automated
systems for all aspects of its operations. During our FY 2009 FISMA review, we became
aware that PBGC was operating its information technology general support systems and
major applications without the necessary authorizations to operate (ATOs), as required
by FISMA and Office of Management and Budget (OMB) Circular A-130. The



                                Semiannual Report Of The Inspector General—SEPTEMBER 2010     5
                             ATO is intended to document the official management decision made by a senior
                             agency official to allow operation of a system and to explicitly accept the risk to agency
                             operations, assets, or individuals based on the implementation of an agreed-upon set of
                             security controls.

                             Due to fundamental weaknesses in PBGC’s IT infrastructure and PBGC’s ineffective
                             certification and accreditation (C&A) process, PBGC senior management officials did
                             not have a valid basis on which to authorize continued operation of PBGC’s information
                             technology systems. We determined that out of the 14 systems, only three had a current
PBGC must address            ATO. Without remediation of all the high and 50% of the moderate vulnerabilities, the
                             remaining eleven systems did not have valid authorizations to operate. Specifically we
weaknesses in its
                             observed that:
C&A process before
                               •  PBGC continued to use systems with unremediated vulnerabilities. Some of the
its systems can
                                  vulnerabilities had been identified as long ago as December 2007.
be appropriately               •  “Conditional” as oppopsed to “authorized” approvals had been granted because of
authorized to operate.             the significant number of high and medium unresolved vulnerabilities. For nine
                                   systems, PBGC senior officials granted a conditional ATO and allowed continued
                                   operation although high and medium vulnerabilities had not been remediated. On
                                   August 20, 2009, OMB issued Memorandum M-09-29 which states that OMB does
                                   not recognize an interim authorization to operate, as doing so would be counter to
                                   FISMA’s goals.
                               •  In December 2007, the certifying agent, information system owner, and Information
                                  Systems Security Officer concluded that two major systems – My Pension Benefit
                                  Account (MyPBA) and eTalk-Qfiniti – should be denied an approval to operate,
                                  pending remediation of all “High” rated items and at least half of all “Moderate” rated
                                  items. For each of the systems, the reviewers had concluded “we certify that the
                                  safeguards designed, developed, and implemented have not demonstrated the
                                  necessary security to reduce the risk of operating the aforementioned system to an
                                  acceptable level.” [emphasis in original]


                             PBGC is in a difficult position with respect to authorizing operation of its general support
                             systems and other major applications. Because an ATO must be supported by a complete
                             C&A document, PBGC must address weaknesses in the C&A process before its systems
                             can be appropriately authorized. OMB guidance does not provide for agencies to issue
                             “conditional” or “interim” ATOs. In theory, an agency should not operate an information
                             technology system unless it has been properly certified and accredited. In summary, our
                             recommendations included:

                               •	 Requesting a waiver from OMB to allow for continued operations of information
                                  technology systems, despite the presence of unremediated vulnerabilities and the
                                  absence of an effective certification and accreditation process.
                               •	 Developing a comprehensive corrective action plan to remediate all the high and
                                  moderate vulnerabilities remaining on the PBGC network.



                         6   PBGC Office of inspector general
  •	 Ensuring that an accountable individual takes ownership and provides oversight of
     the remediation process and validates corrective actions are completed by the target
     dates.
  •	 Ensuring that all ATOs are updated accurately to reflect the current system security
     state and status of the Plan of Action and Milestones.


PBGC agreed with three of the four recommendations. With respect to our
recommendation that PBGC seek a formal waiver from OMB, PBGC disagreed with this
recommendation and proposed an alternative. PBGC stated it has briefed OMB and OMB
has not requested that PBGC apply for a waiver. PBGC noted its commitment to keeping
its stakeholders apprised of progress as the plans are implemented. We accepted PBGC’s
proposed alternative corrective action. We will continue to monitor PBGC’s progress in
completing new authorizations to operate.


PBGC Needs to Improve Controls to Better Protect Participant
Personally Identifiable Information (PII)
AUD-2010-09/ IT-09-67
http://oig.pbgc.gov/audit/2010/pdf/IT-09-67.pdf

We found that the personally-identifiable information (PII) for approximately 1 million
participants is currently at risk because PBGC has not implemented adequate controls
in its Actuarial Calculation Toolkit (ACT). A whistleblower complaint alleged that the PII
                                                                                                  Our report indicated
of participants in terminated pension plans was unprotected because PBGC was using
an unsecured application that did not comply with applicable information technology               PBGC’s actuarial
standards.
                                                                                                  application lacks
ACT captures and stores PII information, such as name, Social Security Number, hire               adequate controls
date and retirement date. Based in Microsoft, it utilizes customized features of Excel and
Access to perform the calculation of an individual participant’s final pension benefit -- a       over the PII of plan
core function for PBGC and one that is necessary to ensure the agency can adequately              participants.
meet its mission. Individual benefit calculations are performed by using Microsoft Excel
spreadsheets and participant data is stored in Microsoft Access files, a small database
system, which allows users to create databases with minimum security features.

Between 1996 to 2004, ACT served as PBGC’s primary valuation system. In 1999, PBGC
recognized a number of drawbacks with the spreadsheet approach and began the
process to identify and procure a new valuation system. Eventually, PBGC selected Ariel,
a valuation system developed by a Canadian firm, to replace ACT. PBGC management
initially believed that Ariel would improve the timeliness of benefit determinations
and improve the reliability and security of participant data. However, in 2008, PBGC
concluded that Ariel was requiring so many resources, in terms of both staff time and
money (more than $31 million), that the Corporation decided to begin the process of
transitioning pension plan participant information from Ariel back to ACT.
When the transition from the new system back to the old software occurred, PBGC
should have, at a minimum, completed a risk assessment, security plan and privacy



                                Semiannual Report Of The Inspector General—SEPTEMBER 2010     7
                               impact assessment. However, because the risks associated with ACT were incorrectly
                               determined, with a resulting classification as a minor system - “a tool kit” - the
                               Corporation did not perform the security assessment mandated by federal standards or
                               take needed actions to mitigate risk. We recommended that PBGC:

                                 •  Identify all Microsoft Access files that are not password protected and immediately
                                    implement password and access controls to ensure the protection of participant PII.
                                 •  Reclassify ACT as a major system and complete a Certification and Accreditation
                                    review based on FIPS 199, National Institute of Standards and Technology (NIST)
PBGC is taking steps to             standards and OMB guidance including risk identification, assessment and
                                    mitigation.
address vulnerabilities
                                 •  Review the facts surrounding PBGC’s incorrect classification of ACT as a minor
in ACT.                             application and document a determination of whether additional controls over the
                                    classification process are needed.
                                 •  Conduct scanning on a periodic basis and timely mitigate vulnerabilities in
                                    accordance with NIST guidance.
                                 •  Implement encryption on all PBGC laptops and storage media that handle PII.


                               PBGC concurred with the report findings and recommendations, informing OIG that
                               management has already completed steps to resolve one of the recommendations by
                               instituting password protection for the 584 databases in ACT that contain PII.


                               Corrective Actions in Response to OIG’s Investigative
                               Management Advisories

                               Security Breach - Protected Data Exposure

                               During the previous SARC period, we reported on an investigation of a PBGC employee
                               who transferred personally identifiable information for over 2200 plan participants from
                               a flash drive to a CD via a Kinkos’ kiosk. Our investigation revealed that an employee
                               received a flash drive that was not authorized for use on the PBGC network. The
                               employee was incorrectly instructed by an IT security employee to use Kinkos to transfer
                               the information to a PBGC approved electronic storage device so that it could be
                               checked for malicious software. We determined that this represented a serious internal
                               control concern for the PBGC because of the risk associated with transferring data via
                               external vendors. A management advisory was issued to document our concerns and
                               needed actions.

                               PBGC took appropriate corrective action in response to our investigation. Steps taken
                               included:

                                 •  Developing and publishing written procedures to ensure safe transfer of data from
                                    electronic storage devices;



                          8   PBGC Office of inspector general
  •  Setting up a dedicated personal computer to be used if PBGC receives data in a form
     that may pose a risk; and
  •  Establishing internal controls intended to ensure that sensitive data is kept safe
     during electronic transfer.


Potential Security Breach at the Continuation of Operations (COOP) Site

During the previous SARC period, we reported on an investigation of an alleged security
breach that had occurred at a remote PBGC location. Our physical security inspection of
the site showed that no breach had occurred, although a hard drive had been removed
from a server and never restored. Our investigation identified several inventory and
internal control issues at the facility. Most importantly, the onsite network administrators
were unable to identify which specific drive was missing, who had removed it and
if one of the uninstalled drives found in the server room was the removed drive. A
management advisory was issued to document our concerns and needed actions.

We revisited the COOP site to determine the effectiveness of PBGC’s corrective actions
                                                                                               PBGC took steps to
in to our management advisories. We noted that the Corporation had developed and
implemented security procedures to safeguard hard drives and that an inventory log of          correct certain IT
spare hard drives had been established.
                                                                                               security weaknesses at

                                                                                               PBGC’s COOP site.
Information Technology and Corrective Action Plans

As reported in our prior semiannual report, PBGC is in the process of developing a
series of Corrective Action Plans (CAPs) to address the systemic IT weaknesses reported
in our internal control and FISMA reports. Importantly, PBGC has committed to build
and manage security controls to an appropriate NIST standard. Further, PBGC made
the decision to enter into an interagency agreement with the Bureau of Public Debt
to leverage its expertise in security control. Our ongoing work shows that PBGC is
beginning to actively address serious information technology issues and the substantial
risks they pose for PBGC’s ability to carry out its mission.

The Corporation has embarked on a coherent approach to resolving and correcting
fundamental information technology weaknesses. Its multi-year corrective action plans
are intended to address security issues at the root cause level. The corrective action
plans are an important first step that reflects the priority that PBGC leadership places on
this critical issue. However, PBGC’s realistic assessment is that a timeframe of between
three and five years is needed to achieve the objectives of the PBGC’s plans. According
to PBGC’s schedule, corrective action for many of OIG’s recommendations will not be
complete until 2015. Specifically, over the next 3 to 5 years, PBGC’s plans call for the
following:

  •  An infrastructure compliant with NIST and FISMA standards,
  •  An improved security program;



                                 Semiannual Report Of The Inspector General—SEPTEMBER 2010     9
                                •  Lower cost and a less complex environment;
                                •  Decreased reliance on contract personnel; and
                                •  A holistic approach to address audit recommendations.


                              During this six month reporting period, PBGC reported to us that it entered into an
                              interagency agreement with the Bureau of Public Debt’s Information Systems Security
                              Line of Business to provide the following services:


                                •  Examine current system boundaries and reclassify PBGC’s FISMA inventory;
                                •  Update the Information Security Handbook;
                                •  Reexamine and document the common controls;
                                •  Assist in developing a timeline for the Certification and Accreditation of PBGC
In its efforts to                  systems;
strengthen its IT               •  Document the Authority to Operate those systems; and

processes, PBGC                 •  Assist in the Certification and Accreditation review of each system.

entered into
                              PBGC expects that its plans will resolve fundamental weaknesses in the PBGC
an interagency                information technology infrastructure. Current PBGC leadership has been
                              straightforward in acknowledging the challenges it faces in revitalizing PBGC’s
agreement with the
                              information technology processes. Implementing the corrective action plans will be
Bureau of Public Debt.        difficult and time-consuming. Some of PBGC’s challenges, like the continuous stream of
                              new and ever-changing federal requirements, are shared by all federal entities. Others
                              are unique to PBGC. For example, PBGC still has an acting Chief Information Officer, PBGC
                              system security expertise is still maturing, and trust-building is still a work-in-process for
                              the office that manages PBGC’s information technology. Strong leadership and effective,
                              persistent oversight, from within the organization as well as from the outside, will be
                              needed if PBGC is to ensure the security of the information technology systems that
                              support the PBGC mission.


                              Congressional Request Leads to New Audit Work
                              While conducting work to respond to a request from Representative George Miller (D.
                              CA), Chairman of the House Committee on Education and Labor (discussed below), we
                              found that the contractors charged with conducting the plan asset audits for the four
                              United Airlines defined benefit plans did not exercise due professional care in their
                              work. Further, we found that PBGC did not comply with its own protocols in conducting
                              these audits that are designed to determine the fair market value of plan assets at the
                              date of plan termination, a value that is important in determining the benefit level
                              of participants. PBGC did not properly oversee the work of the contractor and failed
                              to identify or follow-up on serious and obvious errors and omissions in the work. We
                              found similar shortcomings in the United Airlines participant data audits, which were
                              performed by same contractor and under the same lax control environment.




                         10   PBGC Office of inspector general
We determined that the issues surrounding the contractor’s inadequate audits were
so significant that additional, more detailed evaluation was warranted; we initiated
an evaluation of PBGC’s plan asset and participant data audits for the United Airlines            OIG’s current work
plans. Our next semiannual report will describe our findings and recommendations for              includes evaluations
improvements in PBGC’s oversight of the plan asset audit and the participant data audit
processes.                                                                                        of PBGC’s plan asset

                                                                                                  and participant data

Congressional Request: PBGC’s Handling of UAL Pension                                             audits for four United
Plan Terminations                                                                                 Airlines plans.
http://oig.pbgc.gov/reports/testimony/Miller_UAL_review.pdf

In late December 2009, Chairman Miller of the House Committee on Education and
Labor requested that our office review the circumstances surrounding PBGC’s handling
of the 2005 termination of four United Airlines pension plans. We found that PBGC took
action to protect worker and retiree interests. The deficiencies we found in the plan asset
audits, however, constituted a serious failure in the execution of PBGC’s protocols. Except
for those issues, nothing came to our attention to cause us to believe that PBGC had not
complied with its own protocols or that its established protocols were not adequate, as
long as the Corporation ensures careful execution.

UAL sponsored a number of single-employer pension plans – four were significantly
underfunded, including plans for pilots, ground employees, flight attendants, and
the management, administrative and public contact employees. Under the Employee
Retirement Income Security Act of 1974 (ERISA), as amended, PBGC insures benefits in
certain defined benefit pension plans sponsored by private sector employers, such as the
UAL plans. ERISA establishes the statutory scheme for termination of single-employer
plans when certain conditions occur, such as if the plan will be unable to pay benefits
when they are due or the plan’s future liabilities are reasonably expected to cause an
unreasonably increased long-run loss to PBGC. At the time PBGC instituted proceedings
to terminate the four UAL pension plans, the cumulative underfunding was estimated to
by $10.4 billion. That is, the plans only had $6.8 billion in assets to pay about $17.2 billion
in promised pension benefits. Under ERISA, $13.8 billion of benefits were guaranteed; of
that amount, about $7 billion was unfunded. At the beginning of the fiscal year in which
the UAL plans were terminated, PBGC’s own deficit was $23.5 billion.

From our review, we observed that PBGC officials and staff took actions and performed
administrative steps that protected the worker and retiree interests, including applying
regulations and established processes to implement ERISA’s criteria for terminating and
trusteeing plans. Among the actions that PBGC took were:

  •  Analyzing and documenting whether the plans should be terminated and, if so,
     on what date, then subjecting the analyses and termination recommendations to
     multiple, higher-level reviews, and
  •  Communicating with participants in the terminated plans, including responses to
     individual letters and mass mailings, and large group meetings with UAL pension



                                 Semiannual Report Of The Inspector General—SEPTEMBER 2010        11
                                participants in which PBGC answered questions, addressed concerns and explained
                                the federal pension program.


                            Our review also included a follow-up to a prior OIG report, Review of PBGC Claims Sale
                            (No. 2006-11/PA-0029, August 31, 2006). This report evaluated whether the process PBGC
                            followed in hiring Deutsche Bank to market and sell PBGC’s rights to UAL securities upon
                            UAL’s emergence from bankruptcy was reasonable in light of PBGC’s governance and
PBGC took some              industry standards for institutional investors. While the report noted that “the Sale was
                            perceived in the market as successfully executed,” the report also noted that PBGC failed
actions to protect
                            to share useful and timely information within PBGC and with the Board of Directors.
UAL pension plan            We made recommendations that addressed PBGC’s investment policy, governance and
                            standard documentation. PBGC provided documentation showing they had taken many
participant’s and           actions to improve their internal and external communications, including:
retiree’s interests.
                              •  Written Weekly Significant Activity Reports to the Board Representatives with
                                 confidential information about significant developments in active cases and
                                 litigation.
                              •  Bi-weekly Significant Update Case meetings to executives and department directors
                                 affected by the cases.
                              •  Large case working group meetings attended by interdisciplinary agency managers
                                 and staff who plan and prepare when a large plan is to be terminated and trusteed.
                              •  Bi-weekly meetings between the General Counsel and Chief Counsel and their senior
                                 leaders to discuss legal matters of mutual concern.


                            While PBGC did not implement some of our recommendations, we noted that the
                            Corporation has established protocols and processes that reduce the likelihood of future
                            communications breakdowns similar to those that occurred during the UAL claims sale.

                            We also noted an area in which PBGC could improve: there are no mandates to
                            document discussions and negotiations between PBGC and plan sponsors. Creating a
                            contemporaneous record of settlement and other discussions would create a complete
                            record of the government’s actions for the particular matter and would also preserve
                            the facts from fading memories, differing perceptions, and lost knowledge when staff
                            leave PBGC. We concluded that PBGC needs to develop and implement protocols for
                            all meetings or discussions with plan sponsors that, at a minimum, require written
                            documentation of the meetings.




                       12   PBGC Office of inspector general
PBGC Has Made Progress in Reducing
Backlog of Unimplemented Audit
Recommendations.
As of April 1, 2010, the beginning of the reporting period, a total of 201 audit
recommendations were open. Reports issued during the period added nine more
recommendations, bringing the total number to 210. A total of 47 recommendations
were closed during the period, including 17 recommendations relating to contracting
issues and 12 recommendations relating to financial and investment issues. As shown
by the following chart, more than half of the closed recommendations related to
contracting and financial management issues.




                                                                                            PBGC closed 47 audit

                                                                                            recommendations and

                                                                                            continues reducing

                                                                                            the backlong of
As of September 30, 2010, 163 audit recommendations remain open. These
                                                                                            unimplemented audit
recommendations address a range of issues, from the most serious problem affecting
PBGC to relatively minor compliance issues. In some cases, we met with PBGC officials to    recommendations.
discuss management’s reported corrective actions when we determined that what had
been done was not sufficient to fully address the recommendations. As warranted, we
provided detailed memoranda outlining the need for additional information. Many of
our comments related to management’s need to test the corrective action to ensure it
had been fully implemented and was effective.

The following chart shows the distribution of open recommendations based on the
subject of the recommendation. More than 60 percent of the recommendations relate to
needed improvements in either information technology or contracting.




                              Semiannual Report Of The Inspector General—SEPTEMBER 2010    13
60 percent of

PBGC’s open audit

recommendations

relate to

improvements needed

in either information

technology or

contracting.




                             Many of our recommendations have been open for prolonged periods of time. As shown
                             by the following chart, more than half of the recommendations are more than two years
                             old. Twenty-two recommendations (about 13 percent) are more than five years old; many
                             of the recommendations address the need for improvements in contracting practices
                             and should be implemented in the near future. Other recommendations that have
                             persisted for more than five years address weaknesses in the PBGC’s existing automated
                             premium accounting system; these recommendations will likely remain open until PBGC
                             can implement its new system for premium accounting.




                        14   PBGC Office of inspector general
PBGC reports that it plans to complete many of its open recommendations in the near
future. As shown by the following chart, more than half (82 of 163 recommendations)
are scheduled for completion within the next six month period. About one quarter
of the recommendations will not be completed for at least a year, and the scheduled
completion date for about 9 percent of the recommendations (15 of 163) is more than 3
years in the future. Certain recommendations relating to PBGC’s information technology
security are not scheduled for completion until 2015. PBGC should ensure effective
interim measures to address the issues that will remain open for several years.




                                                                                          Effective interim

                                                                                          measures are needed

                                                                                          to address issues that

                                                                                          will remain open for
We are encouraged by management’s emphasis on correcting noted deficiencies,
                                                                                          several years.
testing their actions and submitting complete documentation to support closure of
open audit recommendations. OMB Circular A-50 notes that “Corrective action taken by
management on resolved findings and recommendations is essential to improving the
effectiveness and efficiency of government operations.”




                              Semiannual Report Of The Inspector General—SEPTEMBER 2010   15
                          Significant On-Going Work
                          Our ongoing audit work addresses some of the most critical issues facing PBGC.
                          As of September 30, 2010, we were assessing a variety of issues, including PBGC’s
                          preparedness for a potential influx of pension plans and the Corporation’s financial
                          statements and compliance with FISMA. We also continue to address a Congressional
                          request that asked us to review PBGC’s actions with respect to the defined benefit plans
                          of Minnesota steelworkers and anticipate issuance of four separate reports dealing with
                          the various concerns that have come to our attention.



                          Request from Special Committee on Aging to Evaluate
                          PBGC’s Preparedness for a Potential Workload Influx
                          (EVAL-2011-01/PA-09-05)

                          After September 30 but before this report was submitted, we issued our report to
Ongoing work includes     PBGC. Our work was performed in response to a request of Chairman Herbert Kohl of
evaluating PBGC’s         the Senate Special Committee on Aging to evaluate PBGC’s readiness to address the
                          potential increase in workload attributable to changes in the economy. Specifically,
preparedness for a        Chairman Kohl asked us to evaluate whether “PBGC management is taking steps to
potential workload        strategically prepare the corporation for the possible influx of such plans and their
                          participants.” In general, our findings relate to the need for a more strategic approach in
influx.                   planning for the workload surges that, while not precisely predictable, are foreseeable.



                          Congressional Request: Evaluation of PBGC’s Processing of Certain
                          Minnesota Steelworker Plans
                          (Project PA-09-66)

                          In response to a request from U.S. Senators Al Franken and Amy Klobuchar and
                          Congressman James Oberstar, we initiated a review of PBGC’s activities with regard to
                          the Minnesota Steelworker pension plans. Our work will be reported in four separate
                          reports, with the first report addressing the serious errors and omissions that plagued
                          PBGC’s efforts to determine the fair market value of plan assets for seven terminated
                          National Steel pension plans. To its credit, PBGC leadership has already begun taking
                          action to address the identified issues, including (1) contracting for a Certified Public
                          Accounting (CPA) firm to re-perform the work related to these pension plans, as well as
                          others; (2) developing a plan for how contractor work will be monitored, evaluated, and
                          accepted; and (3) reviewing plan asset evaluations completed over the last two years,
                          with the objective of using identified deficiencies to train reviewers and staff and to
                          update procedures.




                     16   PBGC Office of inspector general
OIG’s Annual Audits of PBGC’s Financial Statements

The OIG is statutorily required to audit PBGC’s annual financial statements. For FY 2010,
we contracted with Clifton Gunderson to audit PBGC’s financial statements and to
complete several related audits and evaluations. Audit coverage includes an assessment
of internal controls across the Corporation, to include all financially significant systems.
Audit planning began in early March, with much of the field work occurring during the
summer and fall.



Audit of the Pension Benefit Guaranty Corporation’s
Fiscal Year 2010 and 2009 Financial Statements
(Project FA-10-69)

At the end of the six month period covered by this report, our financial statement audit
was in progress but drawing to a close. During November 2010, the OIG issued opinions
and reports relating to the audit of PBGC’s financial statements. The opinion on PBGC’s
financial statements is unqualified, while the opinion on internal control is not favorable,
based on continuing significant IT weaknesses as discussed above.

Opinion on the Financial Statements – The objectives of our financial statements audit are
to provide: (1) an opinion of reasonable assurance as to whether the agency’s financial
statements are presented fairly in all material respects; (2) an opinion on internal control
                                                                                               Continuing IT
over financial reporting including the safeguarding of assets; and (3) an assessment of
compliance with applicable laws and regulations.                                               weaknesses affect the

                                                                                               opinion on PBGC’s
Opinion on the Special-Purpose Financial Statements – We also provided an opinion on the
Corporation’s special-purpose financial statements, which directly link PBGC’s audited         internal control.
financial statements to the Financial Report of the United States Government prepared
by the Department of the Treasury and audited by the Government Accountability Office.

Sensitive Payments Testing – In conjunction with the financial statement audit, Clifton
Gunderson LLP performed testing of sensitive payments, including senior level
management activities and expenses, such as compensation, travel, perquisites,
preparation of required financial disclosure forms, and PBGC vehicle usage. Results of this
testing are incorporated into financial statements audit reports, as appropriate.

Penetration Testing – In connection with the FY 2010 financial statements audit, we
contracted with Clifton Gunderson LLP to perform a vulnerability assessment and
penetration testing, which included internal vulnerability assessments to discover
possible weaknesses in PBGC’s logical security controls and to exploit discovered
vulnerabilities. The goal of our assessment was to determine the degree of control
PBGC could expect an attacker to achieve after a successful penetration. During our
assessment, we discovered live hosts residing on external and internal PBGC networks.
We conducted overt and covert vulnerability assessments on IP addresses in use. We
obtained approval prior to exploitation of discovered vulnerabilities to attempt to gain
access to sensitive data.


                                 Semiannual Report Of The Inspector General—SEPTEMBER 2010     17
                            After September 30 but before this report to Congress was submitted, we briefed
                            the Corporation on its most serious IT security vulnerabilities and provided details of
                            the testing results for development of appropriate corrective action. Because of the
                            sensitivity of the issues, we will issue a restricted disclosure report to PBGC management
                            with appropriate recommendations.



                            Assessment of PBGC compliance with FISMA

                            In conjunction with the IT vulnerability testing, Clifton Gunderson is also conducting
                            the annual assessment of PBGC’s compliance with the Federal Information Security
                            Management Act (FISMA). FISMA requires each federal agency to develop, document,
                            and implement an agency-wide program to provide IT security for the information and
                            information systems that support the operations and assets of the agency. FISMA also
                            requires the agency to report in ten specific areas relating to the state of its IT security,
                            and the OIG independently to assess the agency’s IT security assessment. OMB has
                            developed a mandatory template report for consistent reporting across the government.

OIG conducted its
                            An effective information security program should include accurate Certification and
annual assessment           Accreditation (C&A) documentation, effective security awareness training, adequate
                            contingency plan testing, periodic evaluations of IT controls and effective hardware
of PBGC’s compliance        and software. At the time of this report, FISMA testing was still on-going, though we
with FISMA.                 had reported to PBGC numerous IT weaknesses. Some, like the deficiencies in the C&A
                            process, were reported last year and remain virtually unchanged. Others were new.

                            Subsequent to the reporting period for this semiannul report, during November, 2010,
                            OIG filed a joint report with PBGC on the current status of PBGC’s IT security to OMB by
                            November 15, 2010. Additionally, in early 2011 we will issue a narrative report to PBGC
                            with details about the findings and recommendations for corrective action.


                            Review of PBGC’s Proposed Investment Policy Implementation
                            Guidance

                            Evaluation of Major Asset Allocation Transition Guidance

                            In September, the Chief Investment Officer (CIO) requested our office review a draft
                            document created by PBGC entitled Major Asset Allocation Transitions. After our review
                            of this transition document, we met with the Chief Financial Officer, CIO, and Deputy CIO
                            to share our observations and suggestions. Based on our review, there are opportunities
                            for PBGC to leverage both the OIG’s and PBGC’s prior work in this area. For example,
                            the Major Asset Allocation Transition document did not include the 14-point transition
                            risk matrix developed earlier by PBGC and their consultants, nor did the transition
                            document contain the six additional critical risks and associated mitigating measures
                            OIG recommended PBGC add to its 14-point matrix. Additionally, we suggested PBGC
                            leverage the transition guidelines and principles outlined in PBGC’s 2009 publication, The
                            PBGC Standard: Investment Transition Management Guidelines.


                       18    PBGC Office of inspector general
Development of Written Guidelines for the Securities Lending Program

During the summer of 2009, when we issued our report, written policies regarding
the securities lending program were virtually non-existent. PBGC has now begun the
arduous process of drafting written policy guidance regarding the investment objectives,
risk tolerance, and measurement standards and operations of the securities lending
program. We have worked closely with PBGC, reviewing several iterations of PBGC’s
draft documents and offering suggestions and edits. Because the PBGC Board has the
authority and responsibility for establishing and overseeing the investment policy and
its implementation, the securities lending guidelines proposed in our report should
be submitted to the Board and Board Representatives for review. Final action on our
recommendations for guidance will not be considered complete until this has been
done.

We continue to work closely with PBGC management as guidance relating to major asset
allocation transition and securities lending is being developed. The Corporation has been
                                                                                            OIG works closely with
responsive to our feedback; we look forward to the resulting enhancements.
                                                                                            PBGC management as

                                                                                            the agency develops
Other OIG Reporting
                                                                                            guidance relating to
Access to Information                                                                       major asset allocation

                                                                                            transition and
The Inspector General Act permits the Inspector General to have unfettered access
to all agency records, information, or assistance when engaged in an investigation or       securities lending.
audit. Whenever access to requested records, information, or assistance is unreasonably
refused or not provided, the Inspector General must promptly report the denial to the
agency head. We have not been denied access nor has assistance been unreasonably
refused during this reporting period.

Management Decisions

The Inspector General is required to report the following about management decisions
on audit reports that occurred during this six-month period:


 •  There is 1 audit report for which management decision is pending (see Appendix,
    page 26).
 •  There were no significantly revised management decisions.
 •  There were no management decisions of a material nature with which the Inspector
    General did not agree.




                               Semiannual Report Of The Inspector General—SEPTEMBER 2010    19
                            Audit Peer Review Results

                            In an external peer review of the PBGC OIG’ s audit program for the year ended
                            September 30,2009, we received the highest possible peer review rating, a rating of
                            “pass.”  The “pass” rating means that the external reviewer determined that our system
                            of quality control was suitably designed and our adherence to this system provided
                            reasonable assurance that we performed work and reported results in accordance with
                            professional standards.

PBGC OIG’s audit
                            Government Auditing Standards require each audit organization to obtain an external
program received            review of its system of quality control every three years and make the results publicly
                            available. In addition, under the Dodd-Frank Wall Street Reform and Consumer
the highest possible
                            Protection Act of 2010, the Inspector General is required to report the results of its peer
rating from an              review in its semiannual report to Congress.

external peer review.
                            The peer review was conducted by the Federal Communications Commission (FCC)
                            during the first quarter of FY 2010, with the opinion issued on January 26, 2010. A copy
                            of this peer review is found at our website: http://oig.pbgc.gov/audit/2010/pdf/PBGC_
                            Peer_Review_Report_2009.pdf.




                       20   PBGC Office of inspector general
Other Office of Inspector
General Activities
Review of Proposed Statutory and
Regulatory Changes
A major responsibility of the OIG under the Inspector General Act is the independent
review of PBGC-proposed changes to laws and regulations. There were no significant
PBGC statutory proposals this period, and OIG did not review any new proposed
regulations.


Participation in CIGIE Training Efforts
Senior OIG leaders participated in multiple Council of Inspectors General for Integrity and
Efficiency training efforts, including:
                                                                                               Strong professional
  •  The IG and AIGI participated as guest speakers in three sessions of the Executive         networking was
     Leadership Training sponsored by CIGIE. This course is taught by the American
     University, and is attended by GS-13s and GS-14s from throughout the IG community.        the theme of our
     Our segment focused on the value of networking within the OIG community to                presentations to the
     achieve mission goals and objectives.
                                                                                               IG community.
  •  The IG was the guest speaker at the September commencement ceremony for
     graduating criminal investigators from the Criminal Investigator Training Program
     (CITP) at the Federal Law Enforcement Training Center. In her message, Ms. Batts
     challenged the graduates to go beyond their specialized technical training and
     develop strong professional networks. The CITP provides basic and fundamental
     training in the techniques, concepts, and methodologies of conducting criminal
     investigations. The OIG had one of its own graduate from the CITP in September.
  •  The Special Agent-in-Charge participated on a curriculum review committee to
     revamp the Undercover Operations Program at the Inspector General Academy.
     Based on feedback and recommendations from a series of meetings, revisions were
     made to the training content and methodology for implementation in FY 2011.



OIG Hires New Staff

During this period, the OIG recruited and hired eight new staff members: 5 auditors, 1
information technology specialist, and 2 criminal investigators. This large number of
recruitments stemmed from new positions, retirements, and staff replacement. In the
early part of FY 2011, we anticipate completing additional recruitments. Filling these
positions will allow our office to operate with a full complement of professional staff for
the first time in more than two years.


                                 Semiannual Report Of The Inspector General—SEPTEMBER 2010    21
                             External and Internal Professional Activities

                             Various staff members participated in external and internal professional activities.
                             Examples include:

                               •  The IG participates in the Council of Inspectors General for Integrity and Efficiency
                                  (CIGIE) that promotes collaboration on integrity, economy, and efficiency issues
                                  that transcend individual agencies. Ms. Batts serves as the co-chair of the CIGIE
                                  Information Technology Committee and as a member of the Audit Committee.
OIG staff members
                                  She also serves as the CIGIE delegate to the Chief Financial Officer’s Council. In the
actively participate              Federal Financial Regulatory Inspectors General group, she joins with other IGs to
                                  discuss common financial concerns and the work each is doing.
in internal and
                               •	 The Assistant IG for Audits serves on  the Accounting and Audit Policy Committee
external professional             (AAPC) which is a permanent committee established by the Federal Accounting
activities.                       Standards Advisory Board. Federal accounting standards and financial reporting
                                  play a major role in fulfilling the government’s duty to be publicly accountable. The
                                  AAPC issues technical releases related to existing Federal accounting standards.
                                  AAPC’s technical releases are a form of authoritative guidance for generally
                                  accepted accounting principles for Federal entities.
                               •	 The Assistant IG for Investigations continues to serve as a non-voting member
                                  of PBGC’s Internal Control Committee, providing insight gained through his
                                  experience as a criminal investigator to those responsible for oversight and
                                  accountability of PBGC internal controls. Effective control systems may detect fraud
                                  or deliberate non-compliance with policies, regulations, or laws.
                               •	 The Special Agent-in-Charge participates in the Financial Fraud Enforcement Task
                                  Force sponsored by the U.S. Department of Justice.
                               •	 OIG special agents conducted fraud awareness briefings for several PBGC
                                  departments and Field Benefit Administration (FBA) offices. The briefings are
                                  designed to educate PBGC employees and contractors about fraud indicators, and
                                  the OIG’s authority and responsibilities in combating fraud, waste and abuse within
                                  the programs and operations of PBGC.
                               •	 Senior OIG leaders assisted several OIG’s, including those at the Department of
                                  Agriculture, National Science Foundation, and the Postal Regulatory Commission,
                                  in the evaluation and interviews of candidates for their senior leadership positions.




                        22   PBGC Office of inspector general
Appendix
CROSS-REFERENCE TO REPORTING REQUIREMENTS
OF THE INSPECTOR GENERAL ACT

The table below cross-references the reporting requirements prescribed by the Inspector General Act of 1978, as
amended, to the specific pages in the report where they are addressed.

Inspector General
Act Reference	         Reporting Requirements	                              Page
Section 4(a)(2)	       Review of legislation and regulations.	              21
Section 5(a)(1)	       Significant problems, abuses, and deficiencies.	     5-19
Section 5(a)(2)	       Recommendations with respect to significant 	        5-19
	                      problems, abuses, and deficiencies.	
Section 5(a)(3)	       Prior significant recommendations on which	          26-27
	                      corrective action has not been completed.	
Section 5(a)(4)	       Matters referred to prosecutorial authorities.	      24
Section 5(a)(5)	       Summary of instances in which information 	          19
	                      was refused.	
Section 5(a)(6)	       List of audit reports by subject matter, showing 	 25
	                      dollar value of questioned costs and
	                      recommendations that funds be put to better use.	
Section 5(a)(7)	       Summary of each particularly significant report. 	   5-18
Section 5(a)(8)	       Statistical table showing number of reports and 	    25
	                      dollar value of questioned costs.	
Section 5(a)(9)	       Statistical table showing number of reports and 	    25
	                      dollar value of recommendations that funds be
	                      put to better use.	
Section 5(a)(10)	      Summary of each audit report issued before this 	 28
	                      reporting period for which no management
	                      decision was made by end of the reporting period.	
Section 5(a)(11)	      Significant revised management decisions.	           19
Section 5(a)(12)	      Significant management decisions with which 	        19
	                      the Inspector General disagrees.	
		




                           Semiannual Report Of The Inspector General—SEPTEMBER 2010        23
SUMMARY OF AUDIT AND INVESTIGATIVE ACTIVITIES
For the Six-Month Period Ending September 30, 2010

Audit Reports Issued
	  Number of Reports	                                              2
	  Number of Recommendations	                                      9
Management Decisions
	  Open Recommendations Beginning of Period	                    201
	  Opened this Period	                                            9
	  Closed This Period	                                           47
	  Open Recommendations End of Period	                          163
	  Reports with Open Recommendations End of Period	              38

Investigations
	   Pending Beginning of Period	                                   7
	   Opened	                                                        1
	   Closed	                                                        2
	   Pending End of Period	                                         6
Complaints1
	   Pending Beginning of Period	                                  9
	   Opened	                                                      47
	   Closed	                                                      45
	   Pending End of Period	                                       11
Financial Recoveries2
	   Theft of Funds Recovered	                                    $0
	   Court Ordered Fines, Penalties, and Restitution	             $0
	   U.S. Government Property Recovered	                          $0
Criminal Actions2
	   Arrests	                                                       0
	   Indictments	                                                   0
	   Convictions	                                                   0

Administrative Actions2	                                           0

Referrals
	   For Prosecution:
		 Department of Justice	                                          1
		 Various States’ Attorney Offices	
	   Declined	                                                      1
	   For Other Action:
		        PBGC Management for Corrective Action	                   0
     1
      Complaints include allegations received through the hotline operation and issues resulting from proactive investigative
       efforts.
     2
      Results reported for Financial Recoveries, Criminal, and Administrative Actions include both open and closed cases.




                           24      PBGC Office of inspector general
RESULTS OF REPORTS ISSUED
For the Six-Month Period Ending September 30, 2010
                                                            Number       Questioned       Unsupported    Funds Put to
                                                           of Reports          Costs         Costs        Better Use
 A. For which no management decision had                          10       $441,244                 $0             $0
    been made by the commencement of the
    reporting period.
 B. Which were issued during the reporting period.                 2


      Authorization to Operate PBGC Information                                   $0                $0             $0
        Systems (08/18/10)
        AUD-2010-8 /IT-09-70
                                                                                  $0                $0             $0
      PBGC Needs to Improve Controls to Better
        Protect Participant Personnally Identifiable
        Information (09/16/10)
        AUD-2010-09/ IT-09-67




        Subtotal (Add A. & B.)                                    12       $441,244                 $0             $0

 C. For which a management decision was made                      11       $343,663                 $0             $0
    during the reporting period.

        (i) dollar value of disallowed costs                                 $37,562                $0             $0

        (ii) dollar value of costs not disallowed                          $306,101                 $0             $0

 D. For which no management decision had been                      1         $97,581                $0             $0
    made by the end of the reporting period.
 E.	 For which no management decision was made                     1         $97,581                $0             $0
     within six months of issuance.
 1
     Unsupported costs are a subset of questioned costs.




                              Semiannual Report Of The Inspector General—SEPTEMBER 2010        25
PREVIOUSLY REPORTED SIGNIFICANT RECOMMENDATIONS
FOR WHICH CORRECTIVE ACTION HAS NOT BEEN COMPLETED

                                       Number of
Report Number, Report Title and                               Significant Problems Summary of Significant
                                       Significant
Date Issued                                                   and Deficiencies     Recommendations
                                       Recommendations
96-4/23093-2                                                  Significant             PBGC needs to complete the
Audit of the Pension Benefit                                  Deficiency:             integration of its financial
Guaranty Corporation’s Fiscal                                 Integrating             management systems.
Year 1995 Financial Statements                                Financial
03/13/1996                                                    Management              PBGC estimated completion:
and                                                           Systems                 11/01/2013
                                                 1
AUD-2008-2/ FA-09-0034-2
Report on Internal Control -
PBGC’s FY 2007 and 2006
Financial Statements Audit
11/15/2007

2003-3/23168-2                                                Signficant              PBGC needs to complete its
Audit of the Pension Benefit                                  Deficiency:             efforts to fully implement
Guaranty Corporation’s Fiscal Years                           Entity-Wide             and enforce an effective
2002 - 2001 Financial Statements                              Information             information security program.
01/30/2003                                                    Security Program
     and                                                      Planning &              PBGC estimated completion:
                                                 2
AUD-2008-2/ FA-09-0034-2                                      Management              2/28/2015
Report on Internal Control -
PBGC’s FY 2007 and 2006
Financial Statements Audit
11/15/2007

2003-10/23177-2                                               Control weaknesses      PBGC needs to ensure that its
Review of PBGC’s Premium                                      undermine the           automated system produces
Accounting System                                             quality and integrity   accurate and verifiable
10/10/2003                                                    of reported             premium accounting data.
                                                 3
                                                              premium revenues.
                                                                                      PBGC estimated completion:
                                                                                      11/01/2013




                     26        PBGC Office of inspector general
PREVIOUSLY REPORTED SIGNIFICANT RECOMMENDATIONS
FOR WHICH CORRECTIVE ACTION HAS NOT BEEN COMPLETED

                                        Number of
Report Number, Report Title and                                Significant Problems Summary of Significant
                                        Significant
Date Issued                                                    and Deficiencies     Recommendations
                                        Recommendations
2008-1/FA-0034-1                                               Significant            PBGC needs to mitigate the
Audit of the Pension Benefit                                   Deficiency:            systemic issues related to
Guaranty Corporation’s Fiscal Years                            Access Contols         information access controls.
2007 - 2006 Financial Statements
11/15/2007                                                                            PBGC estimated completion:
     and                                                                              10/31/2013
AUD-2008-2/ FA-09-0034-2                         11
Report on Internal Control -
PBGC’s FY 2007 and 2006
Financial Statements Audit
11/15/2007


AUD-2009-01/FA-08-49-1                                         Significant            PBGC needs to complete the
Audit of the Pension Benefit                                   Deficiency:            design, implementation and
Guaranty Corporation’s Fiscal Years                            Entity-Wide            testing of security controls,
2008 and 2007 Financial Statements                             Information Security   implement an effective
11/13/2008                                                     Program & Planning     certification and review
                                                  5
   and                                                         Management             process, and correct identified
AUD-2009-02/FA-08-49-2                                                                access control vulnerabilities.
Report on Internal Controls – PBGC’s
FY 2008 and 2007                                                                      PBGC estimated completion:
Financial Statements 11/13/09                                                         2/28/2015




This chart complies with Section 5(a)(1), (2) and (3) of the Inspector General Act of 1978, as amended.




                          Semiannual Report Of The Inspector General—SEPTEMBER 2010           27
SUMMARY OF REPORTS OLDER THAN SIX MONTHS FOR WHICH
MANAGEMENT DECISION HAS NOT BEEN ACHIEVED

                                                                                                 Anticipated
 Report and Summary                                     Reason For No Management Decision        Management
                                                                                                   Decision
 Incurred Cost Audit, 2008-09/CA-0054 (9/30/2008)       Management decision is pending            12/30/2010
                                                        DCAA’s completion of its incurred cost
                                                        audit and settlement of indirect cost
Questioned Costs of $97,581 for unallowable costs       rates.
associated with the use of unaudited indirect cost
rates.




                     28       PBGC Office of inspector general
